<html>
<title> - USAID'S LONG-TERM STRATEGY FOR ADDRESSING EAST AFRICAN EMERGENCIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   USAID'S LONG-TERM STRATEGY FOR ADDRESSING EAST AFRICAN EMERGENCIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 8, 2011

                               __________

                           Serial No. 112-95

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
68-243                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a>  



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Rajakumari Jandhyala, Deputy Assistant Administrator, Bureau 
  for Africa, U.S. Agency for International Development..........     5
Ms. Katherine Zimmerman, Gulf of Aden Team Lead, Critical Threats 
  Project, American Enterprise Institute.........................    31
The Honorable Kent Hill, senior vice president of international 
  programs, World Vision.........................................    40
Ms. Shannon Scribner, humanitarian policy manager, Oxfam America.    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Rajakumari Jandhyala: Prepared statement.....................     9
Ms. Katherine Zimmerman: Prepared statement......................    33
The Honorable Kent Hill: Prepared statement......................    43
Ms. Shannon Scribner: Prepared statement.........................    52

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    74
The Honorable Kent Hill: Material submitted for the record.......    75
Ms. Shannon Scribner: Material submitted for the record..........    81


   USAID'S LONG-TERM STRATEGY FOR ADDRESSING EAST AFRICAN EMERGENCIES

                              ----------                              


                      THURSDAY, SEPTEMBER 8, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Two months ago, this subcommittee held a hearing 
on Somalia that revealed the extent of the suffering from what 
witnesses agreed was the worst drought in the Horn of Africa 
since the 1950s. Our hearing today is in part a follow up to 
that July 7th hearing in order to examine the U.S. Agency for 
International Development's long-term strategy to address the 
humanitarian crises in East Africa such as the current 
devastating drought. The need for this continued focus on the 
region is apparent, given the on-going very disturbing reports 
that we are receiving about Sudanese attacks on its Blue Nile 
state that will drive residents into South Sudan and reports of 
theft of international food aid.
    We know that an estimated 13.1 million are in need of 
urgent humanitarian assistance, and every month that number 
goes up. The United States to date has devoted a total of 
$604.6 million in humanitarian assistance funding for the Horn 
of Africa. At the same time, our Government has devoted $370 
million in Fiscal Year 2011 to help the newly-independent 
Government of South Sudan respond to the crisis largely caused 
by the Republic of Sudan's attacks that have sent people 
streaming into this young nation.
    The drought in East Africa apparently is part of a 
persistent weather trend in the region. But there is 
disagreement on the extent to which La Nina or El Nino, two 
weather phenomena, will affect weather patterns in East Africa 
over time. The current La Nina phenomenon which began in August 
2010, resulted in wetter than normal conditions in Australia 
and parts of Asia from December to February, and drier than 
normal conditions over equatorial East Africa over the same 
period, leading to the current drought in the region. But while 
drought is one reason for food shortages, it is exacerbated by 
stagnating agricultural development and unsustainable forms of 
livelihood.
    In our July 7th hearing, Nancy Lindborg, Assistant 
Administrator in the U.S. Agency for International 
Development's Bureau for Democracy, Conflict and Humanitarian 
Assistance, raised the issue of the long-term need for changes 
in livelihoods in the region. She quoted a local cattle herder 
saying, ``We are seeing the end of the pastoral lifestyle as we 
know it.'' In countries across the region, Ms. Lindborg 
testified, nomads are without water and pasture and unable to 
migrate safely. Many of them are left without assets or income 
and as they migrate out of rural areas to urban areas, they 
strain an already stressed situation. There are nomads in 
Africa from Western Sahara to Sudan. If weather conditions have 
conspired to end what in some cases are livelihoods developed 
over millennia, who will work with these pastoralists to 
develop new ways of surviving?
    Part of our humanitarian strategy, therefore, must involve 
working with African governments on developing viable 
strategies for helping nomads transition into new livelihoods 
that fit their skills and are sustainable in often resource-
poor conditions. In the long run, donors will be increasingly 
less likely to continue to support the people suffering through 
repeated droughts in the same areas. We must break this cycle 
now and help them to find durable solutions for the future.
    In Somalia, the hardest hit country in the region, the 
terrorist group al-Shabaab has obstructed the delivery of 
humanitarian assistance and directly threatened aid agencies. 
It also has interrogated aid workers and accused them of spying 
for the West or proselytizing. Maritime piracy and the 
hijacking of aid shipments has also hindered the provision of 
aid. By late 2009, threats against humanitarian workers and 
attacks against aid compounds had driven many international 
groups out of al-Shabaab controlled areas. Most of the 
remaining groups left southern Somalia in 2010.
    The result has been an estimated 2.2 million people in 
southern Somalia, representing some 60 percent of those who 
remain in the country, in need of aid, but currently out of 
reach of most aid agencies.
    We face serious questions about how to meet the desperate 
needs of people like those living in areas controlled by al-
Shabaab. We want to prevent terrorist organizations from 
benefitting from humanitarian aid, but we must balance this 
concern with our deep desire to keep alive those needing food, 
water, and medicine.
    There has to be a solution that not only prevents aid from 
going to terrorists, but also prevents the terrorists from 
perpetrating further violence against their own people by 
denying them access to life-saving food assistance. We don't 
want food being used as a weapon as we learned so bitterly 
during the Mengistu regime.
    Meanwhile, our Government is helping the new Government of 
South Sudan to effectively respond to the expectations of the 
population for essential services and improved livelihoods, as 
well as containing the conflicts that are likely to erupt. This 
new government is learning to handle the normal business of 
establishing a government even as an estimated 371,455 people 
have migrated from the north to South Sudan as well as to the 
Blue Nile in Southern Kordofan States in the Republic of the 
Sudan and the disputed area of Abyei since October 30th of last 
year.
    Apparently, continuing attacks in Southern Kordofan and now 
Blue Nile State will only continue the flight of thousands of 
people into South Sudan. Given its troubled relationship with 
the Republic of Sudan to the north, our assistance to the new 
government must build its capacity as a democratically-elected 
institution and help enable it to avoid and address such 
crises. Empowerment should be our focus as we will help this 
new government take its place among the world's nations.
    Drought and other natural disasters and man-made 
catastrophes due to conflict have been a persistent story in 
East Africa. In an era of limited resources, we must encourage 
adapted lifestyles, develop strategies for delivering aid in 
conflict areas and enable our partner governments to manage 
crises more successfully.
    I look forward to hearing from our distinguished witnesses. 
I thank them in advance for taking the time to be here to share 
their expertise and their recommendations. And I would like to 
yield to my friend and colleague, Mr. Payne, for any time he 
would like to consume.
    Mr. Payne. Thank you very much, Mr. Chairman, for calling 
this very important hearing, what is surely the worst 
humanitarian crisis facing the world today. Prior to our 
recess, we had several meetings dealing with this issue, 
however, we are continuing to see the crisis continue. This 
crisis is indeed the worst in a generation affecting food 
security for more than 12 million people across Somalia, 
Ethiopia, Djibouti and Kenya.
    Many of us remember the famines in Ethiopia in that region 
for many years. Back beginning in the '60s when they started to 
come at about a 10-year frequency there was the drought of the 
'60s, early in the '60s, then in the early '70s and the drought 
in the '80s. And then we went into Somalia in the early '90s 
and we all recall the ``Blackhawk Down'' incident which ended 
that particular era when we went in to try to feed the 
children. Back in the '70s cycle, I went to Wollo Province with 
French and German pilots to deal with the '73 drought and out 
of the city of Dessie in Wollo Province in Ethiopia when we saw 
millions of people who were mobile and we had to locate them by 
planes and then drop food to wherever we could find them. We 
called it the Mobile Million. We saw that we needed to do 
better planning.
    Once again, we see the situation is continuing and the 
international community was very slow to respond then, 
resulting in more than 1 million deaths in that cycle. Then, of 
course, we started to do better planning and we started to 
project when famines would come and we try to preposition our 
supplies and actually probably this situation would be even 
much worse, as bad as it is, had it not been for some 
prepositioning by USAID and the U.N. predicting that this 
drought was coming.
    We now face the worsening humanitarian disaster that will 
take even more lives. The scope and scale of today's crisis is 
virtually unpredecented. As crops have failed and livestock 
have died, food prices have soared in the past year. In 
addition, poor infrastructure and security and internal unrest 
have compounded the problem facing the region. Somalia, where 
drought conditions have exacerbated the long-term complex 
emergency, is the country hardest hit by the disaster and 
Islamic insurgency led by al-Shabaab complicates the delivery 
of international aid to famine-struck areas.
    On July 20, the United Nations Humanitarian Coordinator for 
Somalia issued a famine declaration into regions of southern 
Somalia. Now all south and central regions of Somalia are in 
the midst of this famine, including regions that used to be the 
breadbasket of the country like the Juba Valley. Nearly half of 
Somalia's population, some 3.7 million people have been 
impacted. Over 2.4 million located mostly in the south-central 
region have fled their homes in search of food and water. 
Nearly 900,000 of these men, women, and children have fled into 
neighboring nations, greatly straining their already 
insufficient resources.
    The road to camps in northern Kenya and eastern Ethiopia 
have been described as roads of death. Thousands of women, 
children, and elderly are left on the side of the road unable 
to continue, resting on those who have already died. Those 
fortunate enough to reach the camps find filled beyond capacity 
with horrendous sanitary conditions and a lack of food. The 
international community have recognized the magnitude of the 
crisis. The World Food Program is currently feeding 8 million 
people with more to be accessed in the coming weeks. The U.N. 
Central Emergency Response Fund has granted $51.3 million for 
the region. The Organization of Islamic Conference met last 
week and pledged $350 million to Somalia. The African Union 
matched this amount with $300 million coming from the African 
Development Bank.
    The United States has contributed over $604 million in 
humanitarian assistance so far this year, with nearly 70 
percent of it going to emergency food aid. Despite these 
considerable efforts by the international community to respond 
to the crisis, there remains a significant funding shortfall. 
The U.N. has issued an appeal for $2.5 billion, U.S. Funding to 
date has been approximately $1.1 billion, leaving $1.4 billion 
short.
    The needs of these affected are expected to increase in the 
coming months with emergency conditions expected to persist 
well into 2012.
    First, we must make every effort to get the life-saving aid 
to these people who are desperately in need, especially those 
who are trapped inside al-Shabaab-controlled territory in 
southern Somalia. I join with my colleague, Steve Cohen, and 
other members in sending a letter to the State Department 
requesting that licensing restrictions be lifted for NGOs 
desperately trying to access to most hard-to-reach areas, those 
under al-Shabaab control. The licensing restrictions were 
lifted, but it is still unclear whether the aid is reaching 
those living in the al-Shabaab-held territories.
    As the United States and the international community 
attempt to pull these populations back from the brink, long-
term investments are needed such as risk-reduction strategies 
and helping communities that diversify their livelihoods adapt 
to climate-change conditions and build resilience to face 
inevitable future crises.
    In July, I introduced H Res 361 calling attention to the 
crisis encouraging the United States and other donors to take a 
long-term strategic approach to addressing the root causes of 
the crisis and urging all parties to allow assistance to flow 
to the most vulnerable populations. The resolution has more 
than 50 cosponsors and many of our colleagues have been deeply 
concerned and vocal on the issue including our chairman, Jim 
McGovern, Jo Ann Emerson, Rosa Delauro, Steve Cohen, Barbara 
Lee, Maxine Waters, Gwen Moore, and Leader Pelosi and many 
others. Yet, in the face of the graphic depictions of starving 
women and children, many in Congress have proposed deep cuts to 
our international affairs budget that could cripple the ability 
to provide even basic emergency responses.
    Levels of funding proposed by the House Appropriations 
Committee will make it difficult to meet both short and long-
term needs and emergencies today as long as the preventative 
programs we need to put in place. I know that Chairman Smith is 
also concerned about this issue and we hope to work with him 
and his colleagues to ensure that adequate funding in spite of 
our difficult times here are put forth to deal with the crisis. 
In regard to South Sudan, I was very pleased to be at the 
independence celebration in Juba and have followed closely the 
development in South Sudan. Of course, we're still concerned 
about Abyei; the disputed territory, Southern Kordofan, where 
belligerants are still at each other, and the south Blue Nile. 
We have to resolve these issues so that Sudan can move forward 
and we have to remember that Darfur still remains unresolved.
    Thank you to our distinguished witnesses for joining us 
today. I certainly look forward to your testimony. Thank you. I 
yield back.
    Mr. Smith. Thank you. The Chair recognizes the vice 
chairman of the subcommittee, Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this 
important hearing. I'm going to pass so that we have time to 
get straight to the witnesses. Thank you.
    Mr. Smith. Mr. Carnahan, the gentleman from Missouri.
    Mr. Carnahan. Thank you, Mr. Chairman. I am going to submit 
my opening statement for the record, too, so we can get on to 
our witnesses and again, thank you for holding this important 
hearing today.
    Mr. Smith. Thank you. I'd like to now introduce our first 
witness, Ms. Jandhyala, who has served as the USAID's Deputy 
Administrator for Africa since October 2010. In that capacity, 
she oversees the Offices of Sudan Programs and East African 
Affairs. Prior to joining USAID, Ms. Jandhyala worked as a 
senior advisor and head of the Peace and Security Division in 
the Department of State Office of the United States Special 
Envoy to Sudan. Ms. Jandhyala is an expert on national security 
with a focus on war to peace transitions and public policy 
reforms in countries affected by conflict. The floor is yours.

    STATEMENT OF MS. RAJAKUMARI JANDHYALA, DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Jandhyala. Good afternoon Chairman Smith, Mr. Payne, 
and members of the subcommittee. Thank you for inviting me to 
speak with you today about East Africa. It is always an honor 
and pleasure to have the opportunity to discuss our work in 
Africa. I request the chair recognize the written testimony.
    Mr. Smith. Without objection, your full statement will be 
made a part of the record.
    Ms. Jandhyala. Thank you. As many of you have mentioned, 
the worst drought in over half a century has left 12.7 million 
East Africans in need of emergency humanitarian assistance. 
Under the leadership of President Obama and Secretary Clinton 
and our Administrator Shah, the U.S. Government in coordination 
with the international community is delivering emergency food 
assistance to help local populations in the worst affected 
areas of Ethiopia, Kenya, and parts of Somalia.
    The assistance immediately concerns about local food, 
nutritional support to malnourished children, water, and other 
essential services to save lives.
    East Africa has two faces, a face of conflict, security, 
and corruption is one many know best. But there is another one 
of hope, progress, and promise. And we try to balance in our 
work how to manage both at the same time. Recently, Deputy 
Administrator Don Steinberg, Assistant Administrator Nancy 
Lindborg, testified on the complexities of providing and 
delivering assistance in humanitarian crises such as this when 
we're dealing with both conflict issues, local tensions within 
the communities, and the cross border issues of on-going 
military situation.
    Today, I'm here to discuss with you about our continued 
development engagement in the region which has helped many 
people experiencing rising incomes, improved health, and better 
educational opportunities for their children. USAID's on-going 
work, bolstered by strong policy and diplomacy, serves as a 
crucial force to lessen the severity of the humanitarian crisis 
we're facing. Our work has a long-term view to the region's 
development in order to work with our host country governments, 
regional organization and the broader international community 
with the focus on health, agricultural productivity, 
environmental steward stewardship and conflict mitigation with 
the emphasis on empowering people to participate in democratic 
processes in their country.
    Recognizing the potential of 342 million people in East 
Africa, USAID is investing $3 billion in development assistance 
in FY2011. While this is a significant amount, it's far less 
than what we might need to spend in future humanitarian crises 
in absence of our concerted support for development. Our belief 
is that long-term food security and stability is key to 
lessening the impact of recurring crises such as the one we're 
facing today. Our focus is to strengthen early warning systems 
in the region, build resiliency, as mentioned by the chairman, 
in communities through livelihood support, safety-net 
investments, and implement measures to help populations and 
communities adapt to climate change and prevent conflict over 
resources by underlying issues of fragility that gives rise to 
violence.
    Most importantly, we hope to unlock the enormous potential 
of African agriculture as the driver of prosperity through Feed 
the Future initiative that the President has announced. And our 
continued engagement with the governments at national and local 
levels to advance a reform agenda that takes into consideration 
how to prevent future disasters and how to mitigate the impact 
on their populations.
    We see a difference in the impact of the drought in 
Ethiopia and Kenya on one hand and Somalia on the other. More 
than 40 percent of Somalia's 9.8 million people are in crisis 
and the famine is expected to only get worse. It expanded to 
three regions this week and we're seeing a very different 
situation in Ethiopia and Kenya. One sees a need both in the 
Ethiopia and Kenya to be sure, but also one of resilience. Just 
6 percent of their combined population is at risk while the 
situation is great in Somalia and we do expect it to 
deteriorate.
    Ethiopia serves as an important example of USAID's 
development assistance working in hand with the humanitarian 
which has helped to generate the resiliency that mitigates the 
severity of the humanitarian shocks that they could have been 
experiencing during this crisis. Since 2003, the number of 
Ethiopians in need of emergency assistance has dropped to 
almost two thirds. The Government of Ethiopia has developed 
comprehensive economic and agriculture plans which the U.S. 
Government is supporting. For instance, the government's 
Productive Safety Net program that addresses chronically food 
insecure populations has helped 7.5 million survive the current 
crisis and avoid having to sell off their livestock asset base 
at the moment.
    Kenya reflects another factor that exacerbates our effects 
of the drought: Erratic weather, degraded land, and high cost 
of energy. USAID is helping the country adapt to some of these 
changes and the communities, the pastoral communities of 
northern Kenya deal with the food insecurity that they are 
facing as well.
    We're focused on better management of water, land, and 
natural resources that allow them to adapt to these changing 
situations and also engaged in the markets in the productive 
region.
    Through global climate change, USAID and its Kenyan 
partners are exploring innovative ways for new energy systems 
and have a high cost of applications in rural areas for those 
who have limited access to electricity. Although Somalia has 
lacked a functioning central government for over two decades, 
Somalians have been remarkably resilient to difficult 
circumstances. I was recently in Somaliland a few weeks ago and 
the enormous effort of people there to provide for themselves 
with the assistance that they have received shows a great 
commitment on what we can do in terms of when there is 
stability.
    In other parts of Somalia, we have a USAID transition 
initiatives to bridge between immediate humanitarian assistance 
and longer term development programs. In areas of relative 
stability, our assistance has helped nearly 200,000 children in 
schools; 41,000 communities have access to water; and nearly 
10,000 youth and livelihood programs. We continue to look for 
opportunities for relative stability to empower the population.
    USAID focuses on these issues in Somalia because where we 
find opportunities with communities, we're able to build 
community cohesion and security for those communities, when 
they've invested in their communities and see that there is a 
future.
    I would like to turn to the other part of our work which is 
countries like Sudan which are emerging from conflict and I 
would like to acknowledge it was a pleasure to have the 
opportunity to travel with Mr. Payne to the inauguration on 
July 9th for the emergence of the new country.
    USAID has been present in Sudan since 1958. Since 2005, 
after the signing of the CPA, we've worked in South Sudan to 
help the ministries establish a new government, deliver social 
services, work with local populations to mitigate conflict and 
in the post-independence era, we hope to continue our 
commitment and we are implementing a 2-year transition strategy 
that has an overall goal of increasing stability in the post-
CPA period in South Sudan. That does not take away from the on-
going commitment we have made to encourage both parties to 
continue to negotiate and resolve the outstanding issues that 
are still remaining from the CPA.
    We see South Sudan's development policy challenges 
revolving around five key issues: Transparency, accountability 
and reconciliation for good governance; human capital 
development, given the enormous need head; sound, natural 
resources and revenue management based both on the oil and non-
oil potential that rests with the country; delivery of social 
services, and creating an enabled environment for private 
sector investments. We're working with the international 
community to build a broad coalition so that the government can 
build confidence with its own population that it can deliver on 
their aspirations. The U.S. Government is committed to 
continuing to work with the Republic of the South Sudan in 
efforts to build a new country and deliver the needs of its 
people.
    As we assist the government, we are also working to plan an 
international engagement conference for South Sudan that allows 
us to hear from them their development vision and their 
priorities and how they hope to move forward in the next few 
years.
    Mr. Chairman, this year USAID celebrates 50 years of 
generosity of the American people. We believe we can make the 
world a better and safer place, if we use our wealth, 
expertise, and our values and invest wisely. Each of the 
countries I've discussed today presents a combination of hope, 
accomplishment and a challenge. And the region itself is a 
balance of all of that at the moment.
    The United States' overall investment goes far beyond the 
immediate and we continue to work with you and look forward to 
having a discussion on East Africa today and in the coming 
months. Thank you.
    [The prepared statement of Ms. Jandhyala follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Jandhyala, thank you very much for your 
testimony and for the very detailed, extended testimony you 
have provided. It gives us a great deal of information and the 
subcommittee certainly needs that.
    Let me ask you just a couple of questions. In our July 
hearing on Somalia, the USAID made it very clear that FEWS NET, 
the Famine Early Warning System, made it clear that there was a 
famine perhaps, or a drought certainly, on its way as early as 
last year. We knew that, and our Government wasn't able to 
preposition food, but in your opinion was the handoff of that 
information to taking action done as swiftly as it could or 
should have been? Or were there gaps somewhere that we could 
learn from so if there were gaps it doesn't happen again?
    Ms. Jandhyala. We have worked over the last year with our 
FEWS NET colleagues, our international partners, tracking the 
situation. And I think we've done an enormous, we've put in an 
enormous effort into reaching out to, informing host country 
governments, partners in the region, the U.N. agencies, to see 
how we can jointly work together on this. I'm sure there are 
some things that we can improve on. However, our biggest 
constraint continues to be working with host country 
governments and advancing and working with them to strengthen 
and respond to their populations.
    Mr. Smith. We seem to have been taken by at least some 
surprise by the severity and pervasiveness of the famine. Was 
it more than what the FEWS NET and some of the analyses that 
went into what might be coming their way? Or did we just miss 
something?
    Ms. Jandhyala. I think the failure of the rains in the 
first October, November, that was recognized. And then the 
recent poor rains in June, July has intensified the problem 
that we've been dealing with. But it is a difficult situation 
that we're having to deal with.
    Mr. Smith. I guess what I'm getting at is: Was there 
anywhere along the chain of command where good, actionable 
information might have been missed about the severity of this 
drought? And if there wasn't, please say so.
    Ms. Jandhyala. As far as our colleagues tell us that we 
were able to take that information and turn it into an action 
plan and to preposition, to inform, to educate and seek access 
immediately to get to those areas and find creative ways such 
as voucher programs to see how we can be creative in how we 
deliver assistance in this circumstance.
    Mr. Smith. Now on the voucher programs, have you found that 
empowering people, particularly with work so they can buy 
locally-grown foodstuffs, is preferable to just bringing food 
in? Is that one of the reasons why some of it was stolen in the 
first place because it was in competition with local merchants?
    Ms. Jandhyala. It's a multi-track process. One is 
delivering food. The other is vouchers. So we're trying to find 
as many different ways that we can minimize the impact of this 
crisis on the population. And sometimes, our visibility into 
what's going on in these communities also restricts us on how 
we track this. So we're working on a monitoring system with our 
partners on the ground.
    Mr. Smith. Is there an analysis about whether or not more 
vouchers are needed, rather than less?
    Ms. Jandhyala. Currently, we have $8 million in our voucher 
program and we've launched it, so we're now assessing with our 
teams. How do we expand it, what are the consequences of this 
program, vis-a-vis other types of assistance we're delivering, 
and if there's room for improvement in how we roll this, expand 
this type of activity out.
    Mr. Smith. When will those kinds of decisions be made?
    Ms. Jandhyala. We're in discussion at the moment, so we 
should come back to you and your staff within the next few 
weeks.
    Mr. Smith. Let me ask you about licensing. I think everyone 
on this committee is very concerned about the fact that non-
U.S. supported NGOs who have people on the ground, partners 
with whom they can collaborate with have not--they've been 
given a general verbal ``you won't be prosecuted,'' but why 
hasn't that translated into a durable statement of something in 
hand where the NGOs will not be fearful of prosecution, and who 
would make that decision? And will it be made, in your view, 
soon? Because it seems to me we're losing an asset on the 
ground to feed hungry people because of a concern that somehow 
we might be aiding and abetting al-Shabaab.
    Ms. Jandhyala. I think we're committed to trying to get as 
many different partners to take part in this effort to minimize 
the impact with the population. We are committed and our 
colleagues at the State Department and Treasury are currently 
working to see how we can review the situation on a case-by-
case basis and I think we can provide additional information in 
the coming weeks. These discussions are on-going at the moment 
in the administration regarding.
    Mr. Smith. Is the problem the Treasury Department? Are they 
the ones who are objecting to USAID's requests? It seems to me 
with this drought and its consequences growing worse by the 
moment, why wouldn't you want to just get this done today, for 
example?
    Ms. Jandhyala. The discussions are ongoing at the moment 
amongst all of us, USAID, Treasury, and State, and we're trying 
to balance what's the impact. Even if we move forward, what are 
the issues of access and security. So we'd be able to give 
additional information as these conversations conclude.
    Mr. Smith. I guess what I'm trying to get at is where is 
the bottleneck? Is it at Treasury? Is USAID actively advocating 
for the provision of those licenses to these NGOs? Especially 
since they are people on the ground who know the risks and are 
indigenous Somalians in most cases, willing to get that food. 
But there may have to be some collaboration, some contact with 
al-Shabaab, and they fear prosecution. It seems to me that you 
take that off the table, and you talked about opportunities a 
moment ago, a new opportunity for relief will find its way to 
those people.
    Ms. Jandhyala. I think our State Department colleagues have 
spent a lot of time with the diaspora community as well as our 
leadership trying to identify where the opportunities exist and 
what kind of a process we need to put in place. And I think the 
discussions are ongoing.
    Mr. Smith. Okay, but again I'm trying to get at where the 
bottleneck is. Is it Treasury?
    Ms. Jandhyala. I couldn't say, sir, because we're still 
continuing the discussions.
    Mr. Smith. I do think there is a great deal of support, 
certainly on this subcommittee for ensuring that those licenses 
are granted ASAP and I would say today with an exclamation 
point.
    Ms. Jandhyala. I'll take that----
    Mr. Smith. Please do.
    Ms. Jandhyala. I will.
    Mr. Smith. I would think that a call from the Secretary of 
State to whoever may be the bottleneck in Treasury, if that's 
where it's at could undo a huge long pipeline of discussions 
that could mean more dead or severely hurt people. So please 
take that back and if you could apprise us soon as to what you 
find out.
    In his testimony, Kent Hill of World Vision says that U.S. 
response to the worst drought in the Horn of Africa in 60 years 
is only 60 percent of what it was for the 2008 drought in the 
region. My question is where is the missing funding? According 
to what the U.N. has said is needed, there is about a $1 
billion funding gap. I know in past crises, I've been here 31 
years and no matter who is in the White House and at State 
Department, at USAID, money is often in something as 
catastrophic as this is, drawn down from multiple spigots as 
you're doing and from multiple accounts.
    Is there going to be an effort to draw down additional 
dollars and hopefully get it back to those sources later, to 
meet this emergency crisis? I mean $600 million, we're all 
happy and grateful for that, but it seems that there needs to 
be more.
    And secondly, if I could, I know Saudi Arabia has stepped 
up with some $60 million. I might be wrong on that number. But 
is there a move to try to get our Persian Gulf allies who might 
have much more persuasion with al-Shabaab leaders to use their 
diplomatic efforts to open up more areas so people get food and 
medicine?
    Ms. Jandhyala. On the first issue about funding, there will 
be a mini summit on the Horn of Africa at the sidelines of UNGA 
in the next 2 weeks. And part of that discussion is discussing 
about the current status of the appeal that's been put out by 
the U.N. agencies.
    The other issue is also what our partners in the region, 
Turkey has stepped up. The OIC partners have stepped up, Saudi 
Arabia. So what we're trying to see is how can the U.N. harness 
all of these funding sources to account for what the gap is. So 
there is currently an on-going assessment that we're working 
with our U.N. partners to assess where the funding gaps are, 
given that the nontraditional partners have also provided 
leadership and providing their own funding to the situation.
    So we can come back to you once we have a better picture on 
that gap analysis and then we're able to adjust our funding 
accordingly. But we wanted to really work with and take 
advantage and leverage all these other funding partners that 
traditionally have provided leadership and stepped up in the 
situation. I know Turkey is wanting to work with us to see how 
we can coordinate programs. AU is working with us. We really 
try to see what the actual picture of the gap is because for us 
it's not the funding at the moment. It's access and security. 
But even if it is funding, how do we account for all these 
other nontraditional partners and how do we take advantage of 
theirs and see how we can use their money in areas that we 
can't use our monies and sources of funding. That's the 
discussion we're having with our U.N. colleagues at the moment.
    Mr. Smith. Finally, in Dadaab, the world's largest refugee 
camp, what is being done to ensure that sex trafficking, sex 
for food and other kind of gender-based violence is hopefully 
being stopped, and where there is a violence, where have those 
who have committed it been held to account and the victims 
given assistance?
    Ms. Jandhyala. I know that our colleagues at PRM at State, 
our own gender advisor, Carla Koppell, has been out there and 
we're working--the coping mechanisms that the people in the 
refugee camps has led to some behavior, frustration and leading 
to some of the protection issues that we're dealing with. So 
what we have done is to see how we can work with the UNHCR and 
the Kenyan Government and other partners to see how better we 
can put a protection and see how we can deal with the gender-
based violence. That is a priority for us.
    As you know Deputy Steinberg of the Agency has made a 
commitment to this and we are currently working to see what 
systems, what policies and what programs we need to put in 
place into those camps to address that. It's a major worry for 
us and given that it leaves this population much more 
vulnerable than other situations we've seen around the world.
    Mr. Smith. I would ask--I probably didn't phrase it as a 
question, but do you anticipate further drawdown from various 
accounts to exceed the $600 million on the near term? And how 
much do you anticipate would be needed over the next several 
months?
    Ms. Jandhyala. I think for now we're working with our $600 
million that we have pulled in from. Once we have this 
conversation with the U.N. and the partners we'll explore to 
see where the needs are and then come back and really explore 
what flexibilities and what support we might need from you to 
allow us to do that as well.
    Mr. Smith. Thank you very much.
    Mr. Payne. Thank you very much. We certainly have a 
question in regard to the licensing. I would also like to have 
it clarified. The meeting that was held several days after we 
adjourned, the Administrator Raj Shah attended it and many of 
the NGO groups were there, CARE and Oxfam and most of them. But 
the concern at that time about the whole question of licensing, 
and as we know the agencies take a lot of risk, first of all, 
to have an interest and still try and I just have to commend 
people who put their lives in harm's way. The World Food 
Program since 2008 has lost 14 workers, have been killed trying 
to deliver life-saving food and aid to Somali civilians, so we 
do have some very heroic people. I've met some of them on my 
last trip to Mogadishu about 2 years ago when I visited there 
last. But them then to worry about the license or whether their 
agency is going to be held liable if some of the food falls 
into the hands of al-Shabaab, to me, really is putting a cart 
before the horse. I mean it's bad if al-Shabaab did get control 
of some of the food as we have heard.
    However, I think there was too much holding back or not 
enough clarification to agencies who were willing to put 
themselves out there in harm's way, but worried about the legal 
consequences if some of the food they had fell into the hands 
of some of the bad people. You know, it seems to me that the 
overall goal should have been saving the children, saving the 
women, saving the people in need.
    However, it seems like, Mr. Smith asked, it was Treasury 
fooling around with whether a license could be issued or not 
issued. And can you explain is that issue clear and can the 
NGOs and PVOs work without worrying about if indeed something 
fell in the hands of some less than desirable groups, that 
they're going to be held accountable and prosecuted? 
Absolutely. I mean they were fearful at that meeting, it was 
unclear. It was several weeks ago. And I think that many lives 
would have been saved if we didn't fool around about a license 
and some fool falling into the hands of the wrong people. 
Children were dying while we were trying to debate in court was 
legal, what was not. Should we allow it? We were on the Voice 
of America, there was a program 3 or 4 weeks ago where NPR, did 
any food fall in the hands--the chairman made it clear and 
myself that it's unfortunate if some falls in, we hope it 
didn't. However, the basis goal is to try to save lives. And so 
I just wonder if that issue has been clarified.
    Ms. Jandhyala. Mr. Payne, I agree with you. Our commitment 
is about saving lives. After recently coming from my recent 
visit, it can't be anything other than our commitment to save 
lives. We're approaching this on two tracks, as I mentioned 
earlier. One is everything who receives U.S. funding is covered 
by the license. The other is those who are not being funded by 
U.S. Government, that's the ongoing discussion at the moment.
    So we're encouraging as many people as possible to work 
with us to see how we can take advantage and efficiently 
maximize in working with us in that regard. The ongoing 
discussion about the second track, non-U.S. Government funding, 
those discussions are being had at the moment.
    Mr. Payne. We were just chatting. People need to be assured 
with a legal document in hand. Agencies are still reluctant to 
know whether they are going to be, like I said, not only cited, 
but prosecuted and fines and penalties and I don't know if it 
probably goes as far as imprisonment. This seems to me that 
sometimes it's great to have lawyers around, but I think that 
we really, and I'm not blaming you. I'm sure you would love--
that's what you do, you give food out. You're not trying to 
hold it in. However, perhaps we have the wrong agency here. We 
really need to see if we can get through this red tape.
    We have currently as it's been indicated, $604 million. Now 
how does the DART team in the countries there? Are they a 
separate entity and how is that operating?
    Ms. Jandhyala. We have the DART team in Nairobi and Addis 
and their primary function is to identify and coordinate with 
other partner response agencies so they work with on three 
functions, how efficiently to get our resources out there, find 
creative partners who can help us deliver the assistance, work 
with host country systems to see where we can bring greater 
efficiency to their services and lastly, to work with partners. 
It's a real rapid, real time team that's on the ground trying 
to build better management of the situation.
    Mr. Payne. And how has the fundraising with the other 
countries, I think we mentioned that the Arab League finally 
came in with something. We know we did $604 million. Where did 
the other nations, any other large donors?
    Ms. Jandhyala. The United Kingdom, which is one of our 
other partners, currently is providing $115 million. The EU has 
committed to $300 million. So we're trying to find how best to 
pull all of our resources together to impact this.
    Each of us has our own restrictions, our own programs, so 
we're working--and the World Bank has committed to $500 million 
for disaster recovery and development. So in the next week or 
2, we're trying to bring all of us together and look at not 
only about the emergency, but also the long term recovery 
efforts where maybe we should start doing some things now that 
lend to a greater resiliency and recovery in the coming months.
    Mr. Payne. Now at the Dadaab camp, what is the current 
population? Two years ago--there's a lot of people now, but I 
understand that the growth has grown by maybe 25 percent, 20 
percent since that time. What is the current estimated number 
of people actually in the camp? And I assume that many of them 
can't actually physically get into the camp, so are they in the 
surrounding areas? And how are they serviced? Are they serviced 
as if, in fact, they were in the camp with rations, etcetera?
    Ms. Jandhyala. The camps right now are hosting about 
440,000 refugees, more than 116,000 which have arrived since 
January. Approximately 1500 new refugees are arriving on a 
daily basis. So our colleagues at the State Department are 
closely working with the Kenyan Government about opening up the 
new site, the new refugee camp to relieve some pressure off the 
original camp.
    The services are being delivered in some ways trying to 
help WFP and others, loosen some procedures up, so that the 
food and the immediate services goes to these populations. So 
there is a full effort now to maybe be creative in a way that 
we not just view it as a physical camp, but led by needs and 
services, rather than saying somebody who is in the camp, 
because expecting 1500 people a day in, it's hard for people to 
say where they belong and in which physical location.
    Mr. Payne. Just a final question or two. A number of 
Somalis have gone into Ethiopia which is really great that 
they've opened their borders. However, as you know, in the 
Ogaden region of Ethiopia the Somalia population is at odds 
with the central government. I have spoken to just recently, 
just today in person, one of the ONLF representatives who 
allege that in the Ogaden region there is difficulty and less 
than a uniform delivery of relief supplies.
    Have you heard of any complaint of this nature at the State 
Department, to your knowledge or at USAID?
    Ms. Jandhyala. I'm not aware of anything, but what I could 
do is check with our colleagues in Ethiopia, our mission in 
Ethiopia and our State colleagues and come back to you with 
some additional information on that.
    Mr. Payne. I really would like to have you follow up on 
that. And finally, I spoke to the second person in charge in 
Eritrea a week ago and asked about the situation there. Of 
course, as you know, they indicate that they have had a bumper 
crop last year and they also purchased expecting a problem this 
year. And I have been asked to come and visit if time 
permitted.
    Have you had any conversations with the Government of 
Eritrea? There had seemed to be a lack of communication with 
the government. I know there sometimes has been some 
difficulty, but hopefully, there will be some ongoing 
conversations between the officials of Eritrea and the U.S. 
Government. What is your assessment? I was told that if they 
needed help, they would indeed be in touch with us. So I can 
just take it at that word.
    Ms. Jandhyala. We don't have an AID mission in Eritrea. 
However, the European Union is a big partner of the Eritrean 
Government, so a lot of our visibility into the humanitarian 
situation has been through our partners who have presence and 
programs there. What I could do is talk to our State colleagues 
and our colleagues, partner colleagues at the EU to see where 
we can get additional information on the crops, the situation 
about the food.
    Mr. Payne. I have one last question. In regard to South 
Sudan, there was a donor, a conference, I was really unclear, 
but Ambassador Steinberg was going to have a bit to do with. 
And of course, Ambassador Steinberg is an outstanding person 
and usually does a great job on his projects. However, I was 
wondering what happened to the conference that was scheduled to 
begin about 2, 3 weeks from now?
    Ms. Jandhyala. We're committed, the President made the 
commitment to this International Engagement Conference for the 
new country to come to Washington and meet a variety of 
partners that could help them in implementing their development 
vision.
    We had talked to them about coming as a new government with 
a new cabinet and they appointed their cabinet and installed 
their cabinet last Friday. So we thought between now and then, 
UNGA, which is in the next 2 weeks, that they would not really 
have the time necessary to cohesively come with the policy 
vision. And we wanted them to succeed at the conference and 
wanted to give them an additional time to engage us on their 
development vision.
    Mr. Payne. Thank you, we look forward to that.
    Ms. Jandhyala. We hope to have all of you participate as 
well.
    Mr. Payne. Great. And also, there still seems to be some 
confusion in parts of State Department about South Sudan not 
being on sanctions. So maybe you could bump into anybody over 
at State, tell them it's a new country, and not a part of 
Khartoum any more.
    Ms. Jandhyala. I'll carry that message, sir.
    Mr. Payne. Thank you.
    Mr. Smith. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and Ranking Member 
again for leading us today. Thank you for being here and for 
the work that you do.
    I wanted to follow up. My colleague from New Jersey, Mr. 
Payne's question about Deputy Administrator Steinberg, when he 
recently returned from the region, he indicated that emergency 
humanitarian response must put women front and center in the 
process assuring that they address not just the victims of the 
current emergency, but make them part of key solutions going 
forward. He further stated that the U.S. is involving women as 
planners and officiaries and recipients on programs including 
relief to pregnant women and projects to prevent and respond to 
disturbing reports of sexual violence.
    I want to commend the administration on making these 
priorities and with women and children disproportionately 
vulnerable to malnutrition, disease, sexual and gender-based 
violence in the wake of this crisis, I think these issues are 
critical and especially challenging.
    I'd like to hear you elaborate more on the strategy to 
ensure that these most vulnerable populations are supported 
through the recovery efforts and how they really fit in to the 
long-term development process?
    Ms. Jandhyala. Deputy Steinberg in our Agency has really 
made this an agenda of everything we do across all the sectors, 
health, education, agriculture. It's really a multi-sectoral 
commitment and we work sort of at three levels, one at the 
policy level in these host countries to ensure that women 
participate in this decision-making process when decisions are 
being made about camps and about food deliveries, that they 
should be influencing these decisions. On my recent visit, I 
have seen other camps and I have never seen a camp that is so 
full of women and children as I've seen both in Ethiopia and 
Kenya. And sometimes it becomes a hard thing to kind of absorb 
at the enormity of the suffering that they face.
    And so we have made commitment to three levels. One is that 
they participate during this process and not just be recipients 
of assistance because a lot of times we tend to say we treated 
this many women. Our push right now is to say we need these 
women to participate in the decision-making process in the 
policies that are made. The other big issue is access to 
assets, land and credit. Because in any household women make 
some of these decisions about children's education, food 
security. So we think part of it is making food security, 
having women participate in food security and production, land, 
access to credit.
    We're working with the African women in agriculture 
research and development to help us think through these 
strategies much more and especially in crisis situation. We 
have a lot of knowledge on how to do deal with it in the longer 
term, but we really have to ramp up our efforts in these 
complex crises and go beyond just protection. And how can we 
make them productive because so far we deal with protection, 
but we also want to deal with economic viability of households 
which is dependent on women.
    Mr. Carnahan. When you were there, share with the committee 
some of the impact of that involvement in terms of getting 
better results.
    Ms. Jandhyala. In the camp in Ethiopia, I found that the 
decisions around water, decisions around health care were 
really meaningful in the way that we were able to say how to 
not only survive this crisis, but let's start talking about how 
do we recover from it. That provided sort of a hope and that 
allowed people to be motivated because a lot of--as the 
chairman and Mr. Payne have said, a lot of women made tough 
decisions walking to these camps, leaving children behind and--
sorry.
    Mr. Carnahan. Thank you. The other issue I wanted to ask 
about on my time here is on climate change. Under the generous 
clock of the chairman, climate change, one of the causes of the 
drought, what should we be doing to help mitigate the impacts 
of climate change on vulnerable countries? Scientific evidence 
suggests that extreme weather events such as flooding and 
drought will likely become even more severe in terms of 
frequency and severity around the globe, but especially in 
areas like Horn of Africa.
    Can you talk with us about the administration's global 
climate change initiative, address these trends especially in 
Africa and what else we need to be doing to address those?
    Ms. Jandhyala. From an AID perspective, we deal with 
communities who face water shortages, who lose livestock 
because of lack of rain. We deal with the impact and the 
consequences. So one of our efforts is working with local 
governments. For example, in Ethiopia, before the drought we 
did a commercial de-stocking program where they didn't have to 
wait until the livestock died and lost all their asset bases. 
So we said is it possible to sell off some of your livestock 
now, get some income and be prepared to deal with purchasing 
food within a few months' time when we know you will not be 
able to grow crops.
    The other is water management. In northern Kenya with the 
pastoral community, Mr. Chairman, that you mentioned, our 
objective there is some pastoral communities are able to adapt 
and move near rivers and maybe start farming. Others aren't. So 
we have to--we're working on two tracks within our Feed the 
Future. One is how to sort of have them engage in the market, 
link them to the on-going markets where food production areas 
to food deficit areas. And the other is give them tools to 
manage the resources they need to sustain their lifestyle 
currently.
    It's a very complex combination of factors of managing 
livestock, land, water, and at the community level that's where 
we have worked and continue to work with in most of the Horn at 
least today. I can bring some additional information through 
your staff about what we're doing throughout the continent. 
Today, I sort of have focused on East Africa, but we're willing 
to share that information with you.
    Mr. Carnahan. Thank you. I'd certainly like to see that and 
again, thank you for being here.
    Mr. Smith. Thank you, Mr. Carnahan. Ms. Bass?
    Ms. Bass. First of all, I wanted to thank the chair and 
ranking member for putting this hearing on and all the work 
that you've done over this year and I especially want to thank 
the witness for your work, your contributions and I've never 
been to one of the refugee camps, so I can't even imagine the 
suffering that you must have seen.
    You were giving some examples in regard to climate change, 
but I wanted to ask if maybe you had a couple of other examples 
about how USAID is addressing the long-term needs of the region 
since we know that the cycles of drought and famine occur, 
recurrently. Maybe you could point out a couple of other 
examples?
    Ms. Jandhyala. Our $3 billion of development assistance, 
the region is amazingly dynamic, even with the drought. It 
leads in terms of trade. It leads in terms of financial 
services, innovative mobile banking. I mean on a development 
front, the regional integration platforms, the infrastructure 
that's being discussed within Tanzania, Uganda, and Kenya, it 
is a very vibrant economy that is in that region at the moment.
    So what we have said is we make a commitment to how do we 
create economic opportunity in that region? How do we improve 
governance in that region? And our investments long term have 
actually helped us think through why is it that we're not--how 
do we mitigate? We can't avoid another drought or shortage of 
rain, but we can mitigate it. We can lessen the impact. We can 
be more responsive as the chairman said, and quicker. Where 
have we learned our lessons? So we're spending an enormous 
amount of time with the governments themselves saying that as 
Mr. Payne has said in the '60s, '80s, '90s, we need them to 
commit. So our huge effort is a reform agenda with the 
governments to make policy commitments now so that we don't 
have to face the same situation over and over in the coming 
years.
    For us, the development assistance is the long-term 
solution to the region and I think that Feed the Future, 
unlocking the agriculture productivity in that region is key to 
stability in that region because nearly 80 percent of the 
population earns income in the agriculture sector. So 
productivity is our commitment and governance is a huge 
commitment to the region and regional integrations where they 
take advantage of it, so if there are food deficit areas and 
food productive areas, how do we create the markets to link 
them because we may not be able to grow food in all parts of 
the region, but we need to make sure that the food that is 
grown is reaching populations that can access it.
    Ms. Bass. Thank you. On governance, I did want to ask you a 
question about that. The area that I represent in Los Angeles, 
there's a neighborhood that's referred to as Little Ethiopia. 
And it's a commercial area, but there's a lot of Ethiopians 
that live in the area and they are always talking to me about 
democracy and human rights, especially in the wake of the 2010 
elections. And a little bit off subject, but I wanted to know 
if you could kind of address that in terms of what we're doing 
to support the democratic efforts since they will ask me when I 
get back.
    Ms. Jandhyala. AID approaches this issue from two tracks. 
One is strengthening civil society in terms of participation 
because as long as you don't have populations participating and 
making these choices about their future that's always our 
biggest constraint. We're providing tools. We're providing 
instruments. But at the end of the day you do need a population 
that participates. So we're working on that.
    The other is a much more interesting thing that we're doing 
in Ethiopia, actually, at local governments. We're working with 
the governments about social accountability, so whether they're 
delivering health services or education, we have had much 
better success with local governments having populations 
participate in those decisions. So we feel that we try to use 
different platforms to get the communities participating and 
holding local officials accountable for those services that 
they've made commitments to. And that's our big effort right 
now in many parts of Ethiopia working and deploying to reach, 
working with regional governments. And our State colleagues 
continue to work on the broader governance issues in the 
country.
    Ms. Bass. And then finally, just one last question. I know 
that there will be some cuts in the next year's budget and I 
wanted to know if any of the cuts that are being proposed would 
impact the Food for Peace and international disaster 
assistance, would affect your ability to respond to the current 
emergency or is it something we need to take a look at again?
    Ms. Jandhyala. As of today, we don't see it. We're not 
experiencing it. But I think once we have this conversation on 
the sidelines of UNGA about where the international resources 
are flowing to, we have a better idea where the gaps are and 
then come back and review where our situation is.
    Ms. Bass. Thank you.
    Mr. Smith. Just a couple of follow ups. If you could, Ms. 
Jandhyala, get back to us early next week to the subcommittee?
    Ms. Jandhyala. Yes.
    Mr. Smith. And update us on the progress or lack of 
progress on the licenses in that conversation. Because it seems 
to me delay is denial, and if there's something we can do, 
we'll ask Treasury to come here and provide their rationale for 
denial of those licenses. It seems to me that a call from the 
Secretary of State would do this, at least I would think. This 
is that urgent.
    So if you could let us know by early next week exactly what 
the lay of the land is, that would be most appreciative, and 
we'll share it immediately with all the members of the 
subcommittee for sure.
    Secondly, if you could, on Iran's PR wire there's a story 
that they are now providing their eleventh convoy, this one 
some 40 tons of relief material, food, medicine and the like, 
and this is their eleventh time. So they seem to be responding 
for whatever reason, humanitarian or political or both.
    My question is what is your take on that? Is it real? Are 
they really providing foodstuff? Is this something that is just 
being done for PR purposes?
    Secondly, with regards to the Persian Gulf states, Saudi 
Arabia has some $500 million a day in oil profits. They've 
provided $60 million in relief which obviously is welcomed, but 
my question is what kind of robust diplomacy is being done 
among our Persian Gulf allies, including Saudi Arabia which 
would have, I think, the most to contribute to meet that 
billion-dollar gap and to do it immediately. Who is 
coordinating that? Are the phone calls being made, especially 
in light of the excessive wealth of countries like Saudi 
Arabia?
    Ms. Jandhyala. On the first two, I'll come back with 
additional information regarding--I'll take back your request 
and come back--I'll take back your request to our colleagues 
about the discussion on the licensing.
    On the issue about Saudi Arabia and the diplomatic strategy 
with our Gulf partners, there's an intense effort by our State 
Department colleagues in the region, outside the region, 
nontraditional donors, at every opportunity we have, at UNGA, 
at G-20, at every international event and bilateral discussions 
this topic has been raised with our partners. And that's led by 
our State Department colleagues. And we're working closely with 
them by providing them information on where and how they can 
participate in this large international effort, humanitarian 
effort and development effort for the recovery.
    The other issue is some have started on recovery 
activities, so we're also trying--not everybody wants to deal 
with the immediate humanitarian. Some would like to focus on 
recovery issues. So we're catering to both those conversations 
at the moment, but there is a large, intense effort by our 
State Department colleagues to move this agenda forward.
    Mr. Smith. I want to thank you, Ms. Jandhyala, very much 
for your testimony. We look forward to hearing from you early 
next week. Thank you for your service.
    Ms. Jandhyala. Thank you for having me.
    Mr. Smith. We will now welcome our second panel to the 
witness table and I'll do the official introductions. Beginning 
first with Ms. Katherine Zimmerman from the American Enterprise 
Institute. Ms. Zimmerman is a foreign policy analyst at the AEI 
critical threat project. As AEI's team leader for the Gulf of 
Aden region, her work has focused on al-Qaeda and its 
associated movements in the Arabian Peninsula and the Horn of 
Africa. Ms. Zimmerman specializes in the Yemen-based group al-
Qaeda in the Arabian Peninsula and Somalia's al-Qaeda link, al-
Shabaab. She has conducted numerous briefings for policy 
makers, published analyses of U.S. national security interest 
in Yemen and Somalia.
    We'll then hear from Dr. Kent Hill, who joined World Vision 
in February 2011 after more than three decades serving in the 
U.S. Government and in academic and nonprofit leadership roles. 
As head of the World Vision U.S. international programs, he 
collaborates with World Vision's international partners to 
coordinate the allocation of government grants and donations 
from individuals and corporations. From 2001 to 2005, Dr. Hill 
served as head of USAID's Bureau for Europe and Eurasia. 
Between 2005 and 2009, he led USAID's Bureau for Global Health 
heading up their health programs and representing them in 
several large health initiatives.
    I will note that while Dr. Hill was Assistant Administrator 
for Global Health in the Bush administration, I asked him to 
administratively initiate a robust fistula program within 
USAID. I'm happy to say that he did so and did it 
wholeheartedly with a great deal of skill and compassion. 
Thanks to this program, USAID has dedicated nearly $60 million 
to address fistula between FY 2005 and 2010 and approximately 
20,000 women have received fistula repair surgery since 2005 
and had he not taken that leadership role, I can tell you that 
would not have happened. We had passed a bill. I sponsored it. 
Passed in the House, died in the Senate. We asked if 
administratively Dr. Hill could initiate that program, and he 
did. We're now in some 30 USAID-supported fistula repair 
centers, mostly in Africa, in 11 countries and again 20,000 
women have received repair.
    Then we'll hear from Ms. Shannon Scribner of Oxfam who has 
been with Oxfam since 2003 and is currently leading the 
humanitarian policy team in Washington, DC. She was worked on 
many of Oxfam's humanitarian responses around the world 
including in the Democratic Republic of Congo, Afghanistan, 
Pakistan, Iraq, Liberia, Ethiopia, and Somalia. She has 
testified previously before Congress and has been interviewed 
on humanitarian topics by many well-known media outlets.
    Ms. Scriber began her career as a healthcare volunteer in a 
small rural village in Zambia.
    Ms. Zimmerman, if you could begin.

 STATEMENT OF MS. KATHERINE ZIMMERMAN, GULF OF ADEN TEAM LEAD, 
    CRITICAL THREATS PROJECT, AMERICAN ENTERPRISE INSTITUTE

    Ms. Zimmerman. Mr. Chairman, Ranking Member, members of the 
subcommittee, it is an honor to appear before you today to 
discuss this important topic. Before I begin, I would like to 
direct you to a reference map of Somalia provided in an 
appendix to my statement. I will briefly outline al-Shabaab's 
history with humanitarian assistance before going into detail 
about current conditions and the issue of providing 
humanitarian assistance in al-Shabaab controlled territory.
    Al-Shabaab's position toward humanitarian assistance has 
evolved over the years as hard-line, radical Islamists gained 
prominence in the group. Since mid-2009, the group has 
progressively banned many Western organizations claiming that 
they have a Christian agenda and do not pursue the interests of 
the Somali people. Local NGOs also face pressure from al-
Shabaab for working with these groups.
    Al-Shabaab's leadership particularly targeted the U.N.'s 
World Food Program. First, al-Shabaab prohibited all branded 
aid, including aid with the American flag on it. Then, it 
required the World Food Program to only purchase food locally 
and to empty all food warehouses by the end of 2009. On January 
1, 2010, al-Shabaab militants raided a World Food Program 
warehouse in Marka and burned over 300 sacks of food. The World 
Food Program responded by suspending its operations in the 
south, citing a lack of security. It has not been able to 
resume operations there.
    The experience of the World Food Program is not unique. By 
mid-September 2010, at least seven other agencies were banned 
from al-Shabaab's territories. The organizations that remain 
face restrictions on activities and many are subject to some 
form of taxation. Al-Shabaab's actions have exacerbated the 
effects of the drought in the region.
    In early July this year, al-Shabaab's spokesman announced 
that ``all aid agencies whose objective is only humanitarian 
relief are free to operate.'' Despite this proclamation, 
agencies such as the World Food Program are still banned. There 
have been certain openings into the south. UNICEF, for example, 
has delivered supplies into Baidoa, the capital of Bay region. 
By and large, however, al-Shabaab remains hostile to most 
international aid agencies.
    Many Somali families, unable to survive under al-Shabaab's 
rule, are fleeing. In response, al-Shabaab has established 
roadblocks along primary travel routes and has forced 
truckloads of people to turn back. Residents have also been 
required to feed al-Shabaab militants or face punishment for 
refusing to do so. The group publicizes its drought-relief 
work, but the sheer number of people leaving its territory is 
indicative of the poor conditions and the limited access to 
food.
    It is necessary to recognize very real restrictions on 
humanitarian aid activities when considering the prospect of 
expanding operations into southern and central Somalia. First, 
the humanitarian operating environment is precarious even 
without the presence of al-Shabaab. There have already been 
attacks on aid convoys in Bay and Hiran regions during which at 
least one aid worker was killed. The only clear realized gains 
since the U.N. first deployed peacekeeping forces in 1992 have 
been made in Mogadishu, where a peacekeeping force assists the 
Transitional Federal Government or the TFG.
    The African Union Mission in Somalia or AMISOM, has a force 
presence of about 9,000 peacekeepers. Territory outside of the 
TFG and AMISON's control is contested by armed factions and it 
is likely that any insertion of resources into such a volatile 
environment will result in violence. A significant escalation 
in humanitarian activities throughout southern and central 
Somalia will very likely increase the risk to aid workers' 
safety.
    Second, while al-Shabaab is not the only obstacle to 
humanitarian relief in Somalia, it is clearly the greatest 
threat to aid workers. Al-Shabaab's shura council has made 
clear that it will not accept the presence of many 
international humanitarian aid organizations and has enforced 
this ban with violence. Humanitarian aid organizations are ill 
equipped to deal with the threat posed to their personnel by 
al-Shabaab militants and it would be naive to ignore the 
security aspect of any humanitarian operation there.
    Third, al-Shabaab has a very strong power base in major 
cities in the south such as the ports of Marka and Kismaayo. 
There's a high likelihood that any humanitarian operation, 
which would entail establishing security in the heartland of 
al-Shabaab's territory, would be met with significant armed 
resistance. Al-Shabaab is able to operate military training 
camps openly and will be able to call up forces quickly. Its 
militias have already exhibited the ability to withstand AMISOM 
operations in Mogadishu, especially during its 2010 Ramadam 
offensive. It has taken a 50 percent increase in peacekeeping 
troops and sustained effort by the TFG to develop its own 
security forces to reestablish temporary control over the 
majority of the capital. Whereas in Mogadishu, al-Shabaab 
conducted an insurgency against AMISOM and TFG troops, in 
southern Somalia, al-Shabaab is the dominant power.
    An armed conflict in southern Somalia will likely require 
the deployment of ground forces that could readily defeat al-
Shabaab.
    The decision to pursue a humanitarian operation in southern 
Somalia ought to be made with these substantial costs in mind. 
Opting for humanitarian aid operation will likely require a 
military commitment. Seeking to purchase consent from or to 
cooperate with al-Shabaab to insert humanitarian assistance 
incurs future costs. Purchasing consent does not guarantee 
future security or even the delivery of assistance to the 
people in need. What it does, however, is fund a virulent 
radical insurgence group that has stated its intentions to 
attack America, and has increasingly established ties to al-
Qaeda's operational franchise, al-Qaeda in the Arabian 
Peninsula across the Gulf of Aden in Yemen. Cooperating with 
al-Shabaab will likely permit it to dictate aid distribution 
strengthening the group.
    A humanitarian operation to respond to the spreading 
famine, however morally imperative, must not be undertaken 
without an understanding of the full requirements and the 
associated risks. I thank the subcommittee for its attention.
    [The prepared statement of Ms. Zimmerman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much.
    Dr. Hill.

STATEMENT OF THE HONORABLE KENT HILL, SENIOR VICE PRESIDENT OF 
              INTERNATIONAL PROGRAMS, WORLD VISION

    Mr. Hill. Mr. Chairman, thank you for your kind words about 
the work together we did on fistula and a number of other 
topics. I appreciate that very much and Congressman Payne, I 
remember your support when I testified before this 
subcommittee, I believe on TB, and we managed to get some major 
progress there as well, so I appreciate that very much.
    I testify to you today on behalf of World Vision, and thank 
you for the opportunity of doing so. World Vision is a child-
focused Christian humanitarian organization that serves the 
most vulnerable people in about 100 countries and I might just 
add that in our calculation of the 100 countries or so Somalia 
is the top of the list in terms of difficulty the place in 
which to work.
    The World Vision International 2010 budget was 
approximately $2.5 billion and the World Vision U.S. portion of 
WVI raised about $1 billion of that with 75 percent coming from 
private donations. Our supporters include 1 million donors from 
every state and congressional district and we partner with more 
than 6,000 churches and thousands of corporations as well.
    With respect to the crisis in the Horn, we've been working 
to strengthen communities and respond to emergencies for 60 
years. In 2010, World Vision served 15 million people through 
responses to 80 different humanitarian disasters around the 
world including Haiti, the flooding in Pakistan, the severe 
drought in China. We've been operational in the Horn for a 
number of decades.
    This drought is the worst in the Horn in 60 years. Just a 
couple of days ago the U.N. has warned that as many as 750,000 
Somalis may die in the coming months. This is approaching the 
number of people who died and probably will exceed that which 
occurred during the '84-'85 Ethiopian famine.
    An incredible 58 percent of the children in Somalia's Bay 
region are suffering from acute malnutrition. In total, more 
than 12 million people are presently at risk. Their crops have 
died. Their animals have died and now they are dying in the 
tens of thousands. Half of them or more are children, many in 
southern Somalia, where the famine has been declared in a 
number of places. Many tens of thousands more will die unless 
the world responds in a way that's more convincing than it is 
now responding.
    World Vision is reaching out to about 2.5 million people 
with life-saving aid and other assistance in this particular 
crisis. Let me say just a word about how smart aid saves and 
transforms lives. While droughts are cyclical and more droughts 
will certainly come in the future, famines are entirely 
preventable with the right response.
    Let me insert something here. There's been a lot of 
discussion here today about the problems of food security and 
the things that the world needs to do on this, but it would be 
silly not to note the importance of the testimony we have just 
heard.
    In situations where there is political instability or 
anarchy, you're always going to have a crisis exacerbated, so 
droughts and famines are never going to have just rain or 
climate problems when you've got this kind of governance issues 
at work in Somalia. Read any standard history of this region, 
and it is frightening the degree of the complexity and the 
difficulty of solving that.
    If we don't find a way to address the governance issues in 
places like this, our international development attempts to 
help will always be severely limited. So we've got to keep that 
in mind.
    We can and we must respond and we must respond quickly if 
the devastating consequences of this famine in the Horn are to 
be significantly reduced.
    Now we know firsthand from our experience that there are 
things you can do that will make a difference. Throughout the 
Horn of Africa World Vision has delivered water to communities 
whose water sources have dried up. We've provided emergency 
nutrition to malnourished children. Our clinics in Somalia will 
serve people who have fled their homes or on their way to 
Ethiopia or Kenya. We have put up 5,000 tents in Dadaab, the 
largest refugee camp in the world, perhaps the first shelter 
that these Somali refugees have had in more than 30 days. Many 
times, these people have walked for days and they're 
malnourished.
    It's sobering to think how many more people, especially 
children, will die if we and the world do not respond 
energetically and quickly. Now this is important. Famine 
prevention has got to be a priority. For two and a half decades 
World Vision has worked in programs like the Morulem Irrigation 
program which has enabled families in northwestern Kenya's 
Turkana Country to grow, eat and sell crops.
    Now I bring this up for this reason. If you compare the 
places that groups like Oxfam or World Vision or any of the 
other good organizations that do work, if you look at the work 
that they did over a long period of time, 10 or 15 years, you 
compare what happens during a famine, the groups that will have 
the famine are the ones that we have not been in a position to 
help. It does make a difference what we do and when we do it. 
And to what scale we do it.
    Other areas that we don't touch or haven't had the 
resources to touch, they're the ones that are most victimized.
    Now let me say something about this very touchy issue of 
U.S. funding with respect to this. We all know this is a tough, 
political, and budget environment right now with many Americans 
struggling to make ends meet and with much legitimate political 
attention on reducing the U.S. Government debt. But reducing 
the U.S. budget deficit and living within our means, however 
much it is a moral issue to do that and I think it is a moral 
issue to live within our means, it is also a moral imperative 
to save vulnerable children from hunger and effects of disaster 
when we have it within our capacity to make a difference.
    I insist on believing and World Vision believes and I know 
my colleagues believe this as well. We believe that we can do 
both. We can get our fiscal house in order, make the steps 
necessary to do that, and yet we can continue to fund at 
appropriate levels, the important global and humanitarian 
programs that we believe in.
    For many years, the U.S. has been and continues to be the 
leading donor government to humanitarian crises in the Horn, 
but listen to this. Our share has shrunk from approximately 53 
percent of the world's response to the drought in 2008 to about 
30 percent today. We are simply not playing the proportionate 
weight we once did, just a few months or years ago, to crises 
like this.
    Or consider this, the U.S. Government's response to what 
may be--what is the worst disaster, a drought in the Horn in 6 
years is about 60 years in what it was in 2008 and that 
concerns us.
    With respect to appropriation issues, this is not the time 
for America to pull back. It is not a time to reduce those 
life-saving accounts by 30 percent in some cases. It is a time 
to increase them. Disaster assistance accounts for \1/10\ of 1 
percent of our national budget and it's highly cost effective 
in terms of saving lives. They should not be cut during a time 
of famine.
    Therefore, I would request on behalf of World Vision and 
many of the other organizations and InterAction and in addition 
to submitting my full text for the record, Mr. Chairman, I'd 
like to submit that letter that has just gone out to 
congressional members on this point. We would request that 
funding be at least at the Fiscal Year 2010 enacted level which 
means $1.85 billion for migration and refugee assistance 
programs; $1.3 billion for international disaster assistance, 
that's what funds OFDA and $1.48 billion for U.S. food programs 
through P.L. 480, Food for Peace.
    I would like to include for the record, as I mentioned that 
letter signed by over 50 nongovernmental organizations asking 
that disaster assistance accounts be funded at these Fiscal 
Year 2010 levels.
    In conclusion, Mr. Chairman, I want to thank you and the 
ranking member Payne for holding this hearing, for your on-
going internal advocacy within the U.S. Congress to ensure a 
strong and moral response to the situation in the Horn of 
Africa and I look forward to your questions in a few minutes.
    [The prepared statement of Mr. Hill follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Hill, thank you so much.
    Ms. Scribner?

STATEMENT OF MS. SHANNON SCRIBNER, HUMANITARIAN POLICY MANAGER, 
                         OXFAM AMERICA

    Ms. Scribner. Mr. Chairman, Congressman Payne, thank you 
for this opportunity to testify today on the humanitarian 
situation in East Africa. Oxfam is grateful for your leadership 
and the work this committee has done to address the 
humanitarian situation in the region. Oxfam America is an 
international development and relief agency committed to 
developing lasting solutions to poverty, hunger, and social 
injustice. We are part of a confederation of 15 Oxfam 
organizations working together in more than a hundred countries 
with over 3,000 local partners around the globe.
    The Horn of Africa, as we have heard, is experiencing the 
worst drought we have seen in 60 years. But the current crisis 
is also due to not heeding early warnings about the drought, 
the conflict in Somalia, high food prices, and the lack of 
investment in agriculture and programs that reduce the risk of 
disasters in the first place. The famine and on-going conflict 
in Somalia has displaced around 1.8 million people. Thousands 
have fled from rural parts of Somalia into Mogadishu while even 
more have walked for weeks across the desert with very little 
food or water in search of relief in neighboring countries. In 
Kenya, there are 430,000 refugees living in the camp of Dadaab, 
where 70-80 percent of new arrivals are women and children. In 
Ethiopia, there are 250,000 refugees living in Dolo Ado where 
there has been a rise in deaths among children due to measles, 
malnutrition, pneumonia, and diarrhea.
    Oxfam is working in Kenya and Ethiopia directly operational 
and through partners, and we are also working in Somalia, but 
solely through partners. We are reaching over 1 million people 
and aim to reach 3.5 million. Oxfam's response includes 
providing water and sanitation services, food aid, cash 
transfers where food is available and providing livelihood 
support, such as rehabilitating livestock since those 
predominantly affected by this drought have been pastoralists.
    In Somalia, Oxfam's partners are reaching over 800,000 
people. While operations in south-central Somalia are extremely 
difficult, no doubt about it, it is possible to provide 
assistance, particularly for NGOs who have strong links to the 
communities, with some Somali partners, and who have a history 
of working in south-central Somalia.
    In the Kenya refugee camps, Oxfam is providing water and 
sanitation assistance to more than 64,000 people and we are 
also providing water and sanitation to the 60,000 people that 
are sitting on the outskirts of Dadaab.
    The current challenges to the response include funding, 
access, and coordination. The U.S. Government has been by far 
the most generous donor, but I would just like to echo Dr. 
Hill's comments about the need for the U.S. Government and 
others to do more. Other donors have also stepped up including 
nontraditional donors which we've heard a little bit about, but 
the needs are immense and as has been stated, there is a $1 
billion shortfall today. And we know that the needs are going 
to increase. Below average rainfall is predicted for the 
November to January rains in south and central Somalia which 
means we may not see recovery in Somalia until the next harvest 
in August 2012.
    In terms of access, south-central Somalia is one of the 
world's most difficult environments to work in and Oxfam 
partners and other agencies are reaching Somalis and providing 
assistance where they can. But restrictions by armed actors or 
donor policies that also have restrictions can hamper efforts 
to provide lifesaving assistance. Therefore, all parties must 
lift restrictions and allow unfettered access to assistance in 
Somalia.
    In addition to funding and access, we need to ensure that 
aid reaches those most in need. Therefore, coordination, 
information sharing, and transparency amongst all actors must 
be improved. In failing to respond to the early warning systems 
as has already been stated, we knew about this crisis, at least 
about some of the early warning about La Nina was coming in in 
August 2010. While a massive operation is now underway, little 
was done until the May 2011 rains failed, as was predicted by 
the early warning systems.
    Looking forward, national governments, regional actors, and 
the international community, including NGOs must do a better 
job of coordinating a holistic response early on if food 
emergencies are to be avoided in the future. And I just want to 
say recently we've had a series of conferences, we've had two 
FAO conferences in Rome. The African Union also had a 
conference. There's a conference going on in Nairobi today and 
tomorrow by affected countries, but why did it take long to 
actually have those conferences?
    In terms of improving access to food, a number of factors 
have resulted in reduced food production in the region. In the 
long term, we must address constraints to agricultural 
productivity. However, we must immediately increase people's 
access to food today. With high and rising food prices, basic 
staples are simply not affordable for tens of thousands of 
people throughout the region. The majority of people in the 
worst affected areas have no savings and few safety nets to 
support them when drought or other disasters strike.
    Oxfam's assessments have shown that when food is available, 
cash-based interventions are a rapid, effective way of saving 
lives, supporting livelihoods and contributing to the 
functioning of local markets. As we look at the way forward, we 
know that the Horn of Africa is highly vulnerable to natural 
disasters, particularly drought, which will have impacts on 
livelihoods and food productions. Studies have shown that 
investing in disaster risk reduction which we have touched on, 
save lives and money. However, global expenditures on disaster 
risk reduction in 2009 was only 0.5 percent of total annual 
official development assistance.
    Protecting core livestock herds is much cheaper than 
rebuilding them once they have been decimated by drought. In 
the far region of Ethiopia restocking sheep and goats cost 6.5 
times more than supplementary feeding and restocking cattle 
costs 14 times more. DRR also builds community resilience.
    In Ethiopia, Oxfam America has a project in the south where 
we've implemented a small-scale irrigation project that has 
pumped water from a major river to community fields enabling 
pastoralists to produce for their own consumption and to sell 
on local markets. Today, this community is no longer in need of 
food aid and they do not have to migrate with their livestock 
because animal feed is available in their community.
    Mr. Chairman, I would like to enter into the record an 
Oxfam paper on disaster risk reduction in the Horn of Africa 
that we prepared for the last FAO meeting in Rome as well as my 
testimony.
    Mr. Smith. Without objection, those documents will be made 
a part of the record and all submissions by our distinguished 
witnesses.
    Ms. Scribner. Thank you. So solutions do exist and crises 
on this scale can be avoided. But we have to act early and we 
have to invest in the right places. Therefore, the U.S. 
Government should use its foreign assistance and influence. To 
echo my colleague again, maintain the humanitarian emergency 
accounts at the FY2010 enacted levels and fully fund Feed the 
Future because that is what has been put forward by USAID as a 
way to address long-term needs.
    Insure a majority of U.S. Government assistance, both 
humanitarian and development related to this current crisis 
reinforces resilience and reduces the risk of disaster by 
considering the long-term implications. Support national 
governments to establish stronger social protection and safety 
net programs such as delivering regular food, cash, or cash 
vouchers. Build the resilience and productivity of pastoralists 
and other small-scale food producers, including implementing 
policies and long-term investments that focus on drought cycle 
management and improving access to market for small holders.
    Finally, we need to ensure a strong and strategic 
humanitarian response and once humanitarian principles are 
upheld and actors are encouraged to share timely, accurate 
information about their activities.
    Thank you very much and I look forward to your questions.
    [The prepared statement of Ms. Scribner follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Scribner, thank you very much for your 
testimony.
    Let me just ask you a couple of questions. You were here 
for the previous testimony, obviously. I wonder if you might 
want to speak to the licensing issue, how that has hurt 
operations on the ground and where you think the problem lies. 
Where's the bottleneck? Is it Treasury? And why has USAID, if 
they're pushing for this, been unable to get Treasury to change 
their policy?
    Mr. Hill. The NGO community in general was I think very 
pleased with some of the movement in the last few days when it 
was announced that U.S.-funded projects would see more relief 
in terms of the restrictions, of peers of being held 
accountable if assistance somehow reached armed groups or 
someplace else it shouldn't go. But the NGO community 
recognized what was left out of that written statement. And 
what was left out of that written statement was us unless we 
happened to be implementing a U.S. Government grant. And even 
though there have been verbal assurances to us that we needn't 
worry, you can imagine what a donor might think when they 
prepare to give a gift to Oxfam or World Vision or some other 
organization and they don't know if there's going to be a 
problem with liability because of how difficult the environment 
it is in to work in.
    So I think our request would be that the government make it 
very clear in writing that the same discretion will be given to 
us that has been given for U.S. Government funds. Now when you 
consider the amount of money that the private sector has 
available and is willing to put into this, this is really not a 
small point. And so we would like to see more guarantees put 
into writing that would allow us to engage.
    Now that's not the only problem. I mean we were thrown out 
a year ago, World Vision was expelled. And like Oxfam, we have 
to work with other organizations to do our work there. We do 
some work with the Global Fund on Malaria and TB in south and 
south-central Somalia. So there are other times that we will 
have to pull out just because of security reasons, at least to 
be directly involved. But at least we would not have to take 
into consideration the fear that we will be held liable if we 
can't quite manage the risk as well as we would like to.
    Ms. Scribner. And if I could add to that, I agree that we 
have seen some real improvements over the last several weeks in 
terms of USAID implementing partners having these waivers as 
they go in, but it does get to those that do not. And Oxfam 
America does not take U.S. Government money. So for us, we've 
raised $4.5 million from private, from Americans and from 
foundations. We cannot use that money in Somalia. It's not 
clear to us how we could use that money in Somalia. Because 
we're a confederation, luckily we have 15 organizations that 
are chipping into a pot and we do have other organizations, 
other Oxfams that are providing assistance in Somalia, but our 
assistance is going to Ethiopia and to Kenya.
    Mr. Smith. We're going to be working on this between now 
and next week. I plan on introducing legislation that would 
make clear that humanitarian organizations would be excluded 
from the USA PATRIOT Act concerns which is obviously what is so 
important here. And if for no other reason, to give the 
administration whatever cover they think they might need or 
somebody at Treasury who thinks they need some kind of cover. I 
mean, we've had that same problem, as my friend and colleague 
Mr. Payne knows, with those who--like in Burma and elsewhere--
find it impossible to get help here, asylum, because of 
material support, allegedly, or even in Iraq where they have 
paid someone off in order to mitigate the possibility of 
becoming a target of terrorism or as payment to get a loved one 
out. And then that is used against him to come to this country. 
It seems to me that sometimes our rules and regulations border 
on absurd.
    Is there any estimation as to how many people might be 
assisted if the administration some time next week or soon were 
to provide this relief?
    Ms. Scribner. I don't have an assessment.
    Mr. Smith. Clearly, you want to be working with your 
partners on the ground in Somalia, but you're precluded from 
that opportunity out of legal risk.
    Ms. Scribner. Correct. And I mean just to provide 
assistance to the partners that are already operating because 
as I said we're reaching 800,000 people, but we want to expand 
those operations. Our partners want to expand those operations 
and we're working through two partners in Mogadishu, outside of 
Mogadishu, and then also on the Afgooye corridor and Lower 
Shabelle.
    But I do want to make a comment about because these 
restrictions have been in place for some time, that the 
situation on the ground is that the NGOs and agencies that have 
been operating have developed systems and processes under very 
difficult situations to get the aid to go where it needs to. So 
it's Somalis who are delivering the aid, who know the culture, 
know the language. They're negotiating bit by bit. They have to 
negotiate with insurgent groups. It's the reality of Somalia. 
And we don't want to disrupt the good work that they're doing. 
So as other aid organizations come in, that's welcome because 
there are needs on the ground. They need to be sensitive to 
that, but they also need to test the waters.
    For those agencies that haven't been working there, they're 
not going to be able because of the humanitarian operations 
scale-up. It's not going to be big. It's going to be small. 
It's going to be low profile. And so I don't see a scale-up, a 
large scale up happening overnight any time soon.
    Mr. Hill. I would simply add two or three points on this. 
And I would reiterate something I said in my testimony. The 
difficulty for all of us to work there is going to be 
exceptionally high. But my colleague is absolutely right. The 
key is to work with implementing partners that we trust and who 
know the terrain. We just want the freedom to be able to at 
least do that.
    Now the problem with not giving enough funding to this from 
the USG and hopefully we'll get more from the private sector as 
well isn't just in the epicenter of the famine in south and 
south-central Somalia. It is, in fact, in these overcrowded 
refugee camps. There is tremendous amount that can be done. 
There are all sorts of water problems and health problems that 
can be addressed right now if we could just put the right 
resources to work further away from the epicenter in Kenya and 
Ethiopia and northern Somalia.
    Mr. Smith. The FEWS NET famine early warning system had 
predicted a serious drought was in the offing. In your view, 
was there a gap somewhere in leadership, in conveying that 
information to those who could take effective action to 
mitigate it? Or was this a textbook example of what can and 
should be done, but other issues like al-Shabaab are perhaps to 
blame? It seems to me like we were taken by surprise.
    Mr. Hill. We shouldn't have been. When I arrived at World 
Vision a few months ago, one of the first things that came 
across my desk were the reports from my person who is in charge 
of humanitarian disasters that were coming. He's in the room. 
And he told me, he said the word from the U.N. and from other 
places, from the early warning systems is that something bad 
and something bad is coming.
    But to be fair here, we tried to put out, World Vision did, 
many months ago to try to secure some funding, and frankly we 
didn't do very well. We didn't secure much and when I asked 
ourselves at the senior level what happened, why couldn't we do 
it, I mean some of the factors that we just have to face, there 
is a certain donor fatigue, not just on the part of 
governments, but the number of disasters is growing. All the 
experts say it's going to continue to grow. We had Japan 
intercede here which caught everybody's attention. And I think 
it's just human nature that until its right upon us, we don't 
always take the preventative action. But the was enough 
information that we should have acted sooner, both privately 
and publicly, to have mitigated this. We did some and that 
helped, but we should have done more.
    Mr. Smith. Yes.
    Ms. Scribner. Just on that point, I agree. The good news is 
that the early warning systems worked. But the bad news is once 
that happens, then what? There's no trigger. There's no--once 
we see that, then this is the next step and that needs to be in 
place. It is a matter of political will. It's a matter of donor 
fatigue and until we see those images of the famine and of 
people crossing the border, those horrible images we've seen, 
we don't act soon enough. But we need to do better. And I 
commend the U.S. Government for prepositioning supplies last 
year, but then my question would be what were we doing to work 
with national governments? What were we doing to work with 
regional actors and the international community early on? We 
need to do more than just preposition supplies ourselves and 
respond. All donors need to do more on that front.
    I just want to mention that the Kenya Red Cross, there was 
a humanitarian, a Kenyan humanitarian forum in Nairobi back in 
January and they were talking about this and nobody was 
listening to them, including the Kenyan Government. It just did 
not get the attention that it needed to.
    Mr. Hill. Mr. Chairman, if I could just add one thing?
    Mr. Smith. Yes, please.
    Mr. Hill. This sort of amplifies the point of why the 
budget matters. In 2010, the total enacted in 2010 for the 
international disaster assistance was $1.3 billion. Last year, 
it dropped to $863 million. And the House marked-up bill for 
this fund is now $757.6 million. That is a 42 percent reduction 
in 2 years. Now what does that mean? That means that you can 
have all the early warning systems you want, but if you've 
already turned off the lights at the place that's going to 
respond, you're going to be slowed down for weeks or months, 
even if you had the political will and the money to do a 
supplemental.
    So if we want to take seriously the investment we've made 
in early warning systems, we can't do this to funds like the 
International Disaster Assistant Fund.
    Mr. Smith. Would you recommend, not just in this budget, 
but that there be a urgent supplemental request from the 
administration to meet these gaps or can they draw down from 
existing pools of money to meet this emergency and then over 
time return it to those other----
    Mr. Hill. You were right in the previous panel to note that 
it's USAID's obligation and the State Department's obligation 
to shift monies as they can and try to replace it if they can. 
But frankly, it is the kind of situation under normal 
circumstances would justify a supplemental.
    Mr. Smith. Right. To your knowledge, and I did ask Ms. 
Jandhyala if she knew whether or not are we out of money, is it 
that they just don't want to go after other accounts or what? 
We just don't know. Do you have any sense of that?
    Ms. Scribner. I don't. And it's mostly rumors where I hear 
Oxfam is running out of money and then suddenly they have money 
and then there's a pledge that's suddenly given. So I don't 
have a good picture. It doesn't mean that other people don't, 
but I personally don't at this point.
    Mr. Smith. Dr. Hill, you talk about the U.S. Government's 
response to what may be the worst drought in the Horn in 60 
years and only 60 percent of what was for the Horn drought in 
2008. Is that because of lack of resources, lack of will, a 
combination of both or what?
    Mr. Hill. You know, to be fair to the administration, I 
served this administration during 8 years of the biggest 
increase in foreign assistance funding since John F. Kennedy. 
And yes, the President was committed to that and yes, we had a 
bipartisan consensus in Congress to address HIV and PEPFAR and 
malaria and the Millennium Challenge Account. There was a 
bipartisan support for it. In the wake of 9/11, we understood 
that it was important. We had the luxury of being able to 
respond.
    Through no fault of its own, the present administration has 
been dealt a very much more difficult hand. I don't have any 
doubt that the administration would like to respond, wants to 
respond. I think they're distracted by lots of things right 
now. You know, in this nasty partisan bickering that we have 
right now in this country, it's my hope and prayer that this is 
one place that we put the partisan bickering aside. I believe 
there is support on both sides of the aisle to deal with \1/10\ 
of 1 percent of the national budget to exercise our moral 
responsibilities. I think the President is committed to this. I 
believe the Congress can be committed to this.
    We have to help the American public to understand that what 
they think is a situation with respect to foreign assistance is 
not. Repeatedly Gallup polls and others show that they think we 
spend about a quarter of the national budget on foreign 
assistance they say. We should cut it down to about 10 percent. 
And then it turns out, if you combine State Department, all 
foreign assistance together, it's about 1 percent. If you get 
down to foreign assistance, it's much less than that and by the 
time you get to these funds, you're talking about \1/10\ of 1 
percent.
    So we're not talking about the kind of money that's going 
to break the bank. Now we're going to have to be responsible, 
but this could be an example of something we can do together 
and we all should try to take credit for it together and take 
this one completely out of the banks of partisan bickering. 
It's just too important not to do it.
    Ms. Scribner. And if I could add on to that. I agree with 
all of that. But also say that we've already talked about more 
assistance is going to be needed. The needs are growing, so we 
should be asking those questions, Chairman, about where is the 
money, what do we have left in the coffers? Is the supplemental 
the right thing to do? So I welcome those questions and we'll 
ask them ourselves.
    And then in the long term, we also need to look at Feed the 
Future, because that is what the U.S. Government, USAID in 
particular, is saying that is their response going forward in 
order to prevent this from happening again is going to be 
through Feed the Future. So then that brings into questions 
about development assistance overall actually being funded, 
Feed the Future as part of that. So I'm concerned about not 
actually having the funding to do the prevention that we've 
talked about, to do the resilience building that's been 
mentioned and the disaster-risk reduction because we won't have 
the funding in the future.
    Mr. Smith. Ms. Scribner, you mentioned cash-based 
interventions as being obviously a viable option for Somalia. 
That also suggests the availability of foodstuffs that can be 
purchased and I'm wondering: How would you break that up in 
terms of region? Is it mostly cities where the foods might be 
available and that's where that would work? Or how would that 
play out throughout the country?
    Ms. Scribner. It's counter intuitive during a time of food 
insecurity, but there is food available. Of course, not 
everywhere, but in northern Kenya and southern Ethiopia, there 
is food on the local markets. There are--and where food is not 
available in the local markets, in the nearby cities, they 
actually, traders actually have food, but they're not bringing 
them to market because people do not have the money to buy that 
food. So if we are able to give vouchers to those traders to 
bring the food into the communities or to do the cash vouchers. 
You can do cash for work. When people are experiencing food 
insecurity the most vulnerable populations aren't going to be 
able to do that. So you need direct cash, but you could do cash 
for work for people that are healthier in terms of building 
some of the resilience for the next time this hits. And you 
could also do vouchers.
    I think we should be looking at where food is available and 
looking at cash as an intervention and then where food is not 
obviously food aid is needed. I think WFP needs to do, the 
World Food Program needs to do a little bit, a better job in 
determining what the pipeline looks like, where food is 
available and where it's not so that as the international 
community can look at alternative interventions, we know the 
exact areas where food is available and where it's not.
    Mr. Smith. Now Ms. Jandhyala mentioned there's $8 million 
allocated. Does that seem an appropriate order of magnitude to 
you or seems too low in terms of prioritization?
    Ms. Scribner. It seems low. It's a good start. I think the 
U.S. Government does well with direct food aid and that's 
really important in saving lives, of course. But if we could 
increase that amount it does seem low. Again, we are hearing 
that. Oxfam is doing direct food distribution, but we're also 
doing the cash for food. So we're looking at the communities 
where it works and where it doesn't work. USAID should be doing 
that as well and they may need to increase the $8 million.
    Mr. Hill. I think the answer where there's sufficient funds 
being put in, for example, into the Food for Peace, the answer 
would be no. If you gave the same statistics as I just did for 
OFDA because OFDA is what gets its money from the international 
disaster assistance, the fund in USDA which provides for Food 
for Peace was $1.84 billion at the end of Fiscal Year 2010. 
That was the total enacted. And the bill before us right now is 
$1.04. So there's a tremendous cut here in a specific food 
program.
    And here's something else that has not yet come up that I 
think we have to address. Look, if you look at the percentage 
cuts in the total of state and foreign assistance, one of the 
big mysteries to me is why of all of those accounts are the 
deepest cuts here? I don't get it. I mean I know these are 
tough times, but even in foreign assistance and in State that 
you would cut most deeply the food and the disaster funds, it 
just--I think the prioritization there, we have to address 
that. And if there is some negotiation between the House and 
the Senate on the total amount, I would suggest that the 
negotiations center on these particular programs that have been 
gutted, that are being hurt because they were cut 
disproportionately. They should be restored first to the extent 
you can find the bipartisan consensus to do so.
    Mr. Smith. I appreciate that very much thank you. One last 
point, are the NGOs reaching out to Persian Gulf potential 
donors, especially Saudi Arabia? I mean the $60 million could 
be a downpayment for what could be a very huge amount of money 
that they are absolutely capable of providing. They have no 
debt like we do. Their profits, we estimate, or it is 
estimated, is $500 million per day. Sixty million dollars is a 
portion of a day's profits in that oil-rich country. Have the 
NGOs ever thought of sending a joint letter to the government 
and to the King asking for a very serious contribution, like 
$0.5 billion?
    Ms. Scribner. That's an excellent question and one that's 
important. You know, I think Congressman Payne was the one to 
mention that the Organization of Islamic Cooperation has had a 
conference and that was a very important conference and we've 
seen Turkey and Saudi Arabia come forward. Oxfam actually has 
an office in Saudi Arabia, so we actually have outreach with 
donors in that part of the world and it is a request that we're 
making and it's also a request that we make to their Embassies 
in the capitals where we work. So it's something we have been 
pushing for and we will continue to push for. And in terms of 
Somalia, in particular, their assistance is very important just 
because of being able to fund the agencies in those areas that 
are Islamic, a lot of the agencies providing assistance.
    Mr. Hill. Three points. It is an interesting idea and I 
would support and I don't see why InterAction and other NGOs 
could not encourage the U.S. Government to do it. Now it's 
their role as a government and a government-to-government 
negotiation or you know, discussion, to do that. But your 
question raises a very interesting idea that I hadn't thought 
about before, but I think I'm going to pursue. A few months ago 
I spent 4 hours with a World Vision International executive 
meeting with Islamic Relief in northern Virginia. They do 
several million dollars of assistance. I addressed the group. 
We talked about ways that World Vision and Islamic Relief could 
work together.
    And it just occurs to me that we ought to follow up on that 
and talk real specifically about they might be able to do some 
things that we can't do in some of these areas here. We talked 
specifically about that before, but I could--we could also talk 
to them about the possibility of finding out what, if anything, 
they are doing to encourage Islamic governments to play a more 
active role, because I think it was maybe, it was one of the 
folks here today that said it really is odd that there isn't 
more assistance coming from that part of the world. But I think 
one way into that discussion could be through Islamic Relief 
and we have good relations with them and I think it's worth 
pursuing a discussion with them.
    Mr. Smith. Does the Red Cross have access? And how much?
    Ms. Zimmerman. Just from what I've seen out of reports, 
Islamic Relief is active in southern Somalia and also the Red 
Cross, both Iranian Red Cross and then other local 
international organizations that are tied to the Red Cross. So 
there are organizations that can operate in southern and 
central Somalia.
    Just from the security perspective, al-Shabaab has made it 
very clear that local Somali NGOs are the ones it trusts most 
to do the humanitarian relief work and so I think both Oxfam 
and World Vision, having faced security issues with al-Shabaab 
themselves, have gone that route because it's the safest for 
both their workers and it's also one of the more effective ways 
to deliver the assistance into the areas that need it. Thank 
you.
    Mr. Smith. Thank you. Mr. Payne?
    Mr. Payne. Thank you very much. I couldn't agree more that 
I do think that the countries that are doing well should 
certainly step up to the plate. We have seen that Turkey has 
taken more of a leadership. Of course, they're not necessarily 
one of the wealthier countries in the group, but I think that 
their willingness to help with the educational system in 
Somalia and they're simply starting to take more of a 
leadership role and hopefully they can become more active in 
the Arab League to try to get them to do more.
    I think that the African Union could also play a stronger 
role by urging the rich Arab countries to participate more. I 
think they've had a nice, close relationship and there has been 
sort of I guess a working relationship. But I do believe that 
the Islamic countries, especially as it relates to Somalia 
could certainly do much more than what they're doing. The 
African Union did speak out about the treatment of Africans in 
Libya, finally, to the Islamic Arab League that they need to 
talk to the rebels and tell them that they need to stop this 
persecution of persons from sub-Saharan African who are being 
brutally treated by the rebels, feeling that they were part and 
friendly, I guess, to Ghadafi. So I think if they start to step 
up to the plate a little bit more that would be helpful to the 
overall cause.
    Let's see, where to start? Ms. Scribner, Oxfam and other 
organizations have argued that while weather conditions 
contribute to the severity of the crisis, the poor policies and 
planning that cause the region to be more susceptive, that poor 
policies and planning have been as big a factor. I wonder if 
you would want to highlight what factors you think have led to 
the humanitarian crisis and what are ways, if any that these 
might be prevented and addressed in the future. I know you 
talked about the U.S. policy of Feed the Future which is 
certainly a well-drafted plan, but could you go into a little 
detail on that?
    Ms. Scribner. Sure, on agriculture and pastoralism, it 
provides livelihoods for 237 million people in East Africa who 
live in the rural areas, yet, globally, the share of official 
development assistance that supports agriculture has declined 
by 77 percent. And it accounts for only 7 percent of the total 
official development assistance today. So I would say 
agriculture is an area where the international community has 
not done enough investment in and we've actually declined in 
our investments.
    But it's also up to national governments, of course, to 
play a role in directing investments toward agriculture. And 
both Kenya and Ethiopia have committed to direct 10 percent of 
their national budgets to agriculture. However, Kenya and 
Ethiopia lack investment in livestock production in the region. 
For Ethiopia, only 1 percent of their overall--sorry, 0.3 
percent of their overall budget goes to investment and 
livestock production. And for Kenya, it's less than 1 percent 
of their budget. So I think that is an area in terms of 
agriculture and livestock production where the international 
community can invest more, but also national governments.
    Both Ethiopia and Kenya are taking steps to do disaster 
management approaches and that should be commended. That's good 
news. But both Ethiopia and Kenya also need to look at the 
early warning systems and take the data that they're seeing and 
act sooner. And they do need to invest more in disaster-risk 
reduction.
    And in terms of the disaster-risk management approach, it 
needs to be built up in terms of the capacity of the 
governments at all levels in Ethiopia and Kenya. So today and 
tomorrow there is the Nairobi conference that has been 
happening, where governments are submitting their national 
plans to prevent drought in the future. The U.S. Government 
should look at those plans and see how we can support those 
countries going forward. And most importantly, I think for 
Ethiopia and Kenya is to implement, and there are some 
ratifications of legislation that actually needs to happen. So 
even though these proposals are out there, they need to be 
implemented. And as soon as they do that, the U.S. Government 
should be behind that and supporting that effort.
    Mr. Payne. On the question of al-Shabaab, you know they 
have changed their policy it seems over the course of 6 or 7 
months, once they, I guess initially said there was no drought 
and then they agreed that yes, it was a drought, but you 
couldn't bring food aid in. Then they allowed it to come in. 
What is the current--and any one of the three of you might want 
to pitch in. What is the current situation, especially in 
south-central Somalia and where in the recent disappearance of 
al-Shabaab from Mogadishu, they're certainly not gone. They 
just away, but how do you see that whole area playing out?
    Ms. Zimmerman. The official line from the spokesman from 
al-Shabaab is still that there is not a famine in Somalia, that 
there is a drought, but that al-Shabaab is able to feed and 
help the people under its territories. And what the group has 
actually done is through a news channel that it has is when it 
hosts food distributions in refugee camps and displaced persons 
camps that al-Shabaab militants run, it will use that as 
promotional material and take pictures of the food aid being 
distributed and of the families being fed, and broadcast that 
throughout southern Somalia and into the diaspora as well 
saying that al-Shabaab is doing good work and this is Islamic 
charity at its heart. Through this and through coming together 
and trusting in al-Shabaab that people can survive this 
drought.
    More broadly, however, access still remains very limited 
into southern and central Somalia because of this denial of a 
crisis. And in my opinion, what has happened is that more local 
al-Shabaab leaders, who have greater ties to local communities 
needed to be more responsive to their populations, have 
increasingly put pressure on the leadership and actually openly 
put pressure on the leadership to change its policies toward 
major international aid organizations, recognizing that there 
is a drought and that people are dying in southern and central 
Somalia.
    From what I saw, I think the first signs were really in 
April where local clan leaders told local al-Shabaab officials 
that if they did not permit food assistance in now that people 
would die later and it's later and people are dying. And I 
don't think that al-Shabaab has fully recognized the effect 
that this has had on its public perception within the Somali 
population.
    Mr. Payne. There was--I don't know whether World Vision has 
tried it, but there was at one point a move to attempt to have 
some Somali community here, in Minnesota, to try to get word to 
some of the al-Shabaab leadership that they ought to reconsider 
their policies.
    Have any of you worked with the local Somalia community and 
attempted to get them to try to persuade the al-Shabaab people 
to have a different--the leadership to take a different tack?
    Ms. Scribner. Oxfam, we have not, but we have been talking 
about the importance of the diaspora and that exact role. And 
so it's something we are discussing and something we are 
considering doing. But maybe to add a point to what Ms. 
Zimmerman said, but also to your question, the diaspora could 
potentially help, but it's really the communities where the 
partners, Oxfam partners and other agencies that are operating 
on the ground are working who are that defense for 
organizations. If you get that community buy-in and if the 
community protects the aid projects, then they're the ones to 
put the pressure on the local leaders.
    So our first defense through our partners and working on 
the ground are the communities themselves.
    Mr. Payne. Have your agencies worked with partners that 
have been able to get into Eritrea, has Oxfam--how have you 
found the situation?
    Ms. Scribner. I don't have a lot of information about 
Eritrea. Oxfam does have programs in Asmara and in southern 
Eritrea, but the operations are limited and we have very few 
staff, so we don't get a lot of information coming out of 
Eritrea. But in Tigray and northern Ethiopia, we are seeing 
people that are crossing the borders that have been affected by 
the drought and we have heard stories about livestock that have 
died. So from the information we're getting in the Tigray 
region, people seem to be affected by the drought in Eritrea as 
well.
    Mr. Payne. And Somalis are going into Ethiopia. I know they 
are allowing them in which is good, humanitarian, although 
Ethiopia is having its own problems with its own drought 
situation so it's really complicated and then on the long-term 
problem as I mentioned before, the Ogadon region which is a 
whole separate issue for decades, tends to be having its own 
kind of situation.
    On one hand, the Ethiopian Government is embracing people 
coming into their area, even though they're having difficulty 
with the drought, but then on the other hand you hear in 
another area that it's not working. So I guess we have to 
continue to just do the best we can and try to keep the 
pressure on.
    Let me just commend all three of you for the outstanding 
work that each of your organizations continue to do. Thank you.
    Mr. Smith. If I could just have one final question to Ms. 
Zimmerman. In your testimony, you say there are reports that 
school-aged children have been forced to attend sessions with 
al-Shabaab officials to receive either religious or military 
training, and we know that Joseph Kony and Charles Taylor have 
relied, relied past tense in Taylor's case, on children to do 
some horrific things to other people, including violence. And 
I'm wondering how widespread is that, child soldiers? Do we 
know?
    Ms. Zimmerman. From what I've seen actually, the use of 
child soldiers is prolific on both sides in Somalia. Al-Shabaab 
conscripts children from regions that it controls, but there 
are indications that the Transitional Federal Government has 
used child soldiers in the past and it says that it's trying to 
take efforts to ensure that they are of proper age before 
enrolling young boys into its programs to train them as 
soldiers.
    However, I think that Somalia and the U.S. could look 
further into the issue of the use of children as soldiers in 
the Horn of Africa. It's an on-going problem. Thank you.
    Mr. Smith. Would any of you like to add anything before we 
conclude? I too, would like to thank you for your leadership 
and your extraordinary testimony which will be very helpful to 
us and I do believe the administration. And I look forward to 
working with you going forward. The hearing is concluded. Thank 
you.
    [Whereupon, at 4:37 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


             <F-dash>\<H-dash><careof><script-l><script-l> 
                     <F-dash><func.-of><Register>\

 Material submitted for the record by the Honorable Kent Hill, senior 
         vice president of international programs, World Vision

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    <F-dash>\<Hoarfrost><star><natural><careof>b<Rx><box><natural> 
                     <F-dash><func.-of><Register>\

Material submitted for the record by Ms. Shannon Scribner, humanitarian 
                     policy manager, Oxfam America

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
